No.
IN THE

$)Upreme (!Court of tbe Wntteb $)tates
SWISHER INTERNATIONAL, INC.,

Petitioner,
V.
TRENDSETTAH USA, INC. AND TRENDSETTAH, !NC.,

Respondents.
CERTIFICATE OF SERVICE
I hereby certify that I am a member in good standing of the bar of this Court and
that on this 13th day of September, 2019, I caused three copies of the Petition for a Writ
of Certiorari to be served by third-party commercial carrier on the counsel identified
below, and caused an electronic version to be transmitted to the counsel identified
below, pursuant to Rule 29.5 of the Rules of this Court. All parties required to be served
have been served.

Counsel for Respondents:
Mark Poe
Randolph Gaw
Samuel S. Song
Victor Meng
GAWPOELLP

4 Embarcadero
Suite 1400
San Francisco, CA 94111
(415) 766-7451
mpoe@gawpoe.com

Tom Goldstein
Eric F. Citron

Charles Hardy Davis
GOLDSTEIN & RUSSELL, P.C .

7475 Wisconsin Avenue
Suite 850
Bethesda, MD 20814
(202) 362-0636
tgoldstein@goldsteinrussell.com

